                                        SENSITIVE INFORMATION




Memorandum from the Office of the Inspector General



February 14, 2006

Paul R. LaPointe, WT 3A–K

TRANSMITTAL MEMORANDUM – INSPECTION 2006-510I – BELLEFONTE NUCLEAR
PLANT CONSTRUCTION INVENTORY REVIEW



Attached is the subject presentation for your review. As discussed with your staff on
February 13, 2006, this inspection is being issued for informational purposes only; therefore,
no response is necessary.

Pursuant to a Congressional directive, we also are forwarding a copy of this report to the
House and Senate Committees on Appropriations. In addition, we are considering whether this
report and/or a summary should be posted on the OIG Web page. Please advise us if you
believe this report contains any sensitive information which should be withheld (including the
response(s) to the draft report). If we have not heard from you within 20 calendar days of the
date of this memorandum, we will assume you have no objection to release of this report in its
entirety.

If you have any questions, please contact R. Darryl Bryant, Manager, Inspections, at
(423) 751-4415 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff during
this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

EAH:RDB:SDB
Attachment
cc (Attachment):
     Tom D. Kilgore, WT 7B-K
     William H. Lehman, ET 5A-K
     John E. Long, Jr., WT 7B-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, WT 7C-K
     OIG File No. 2006-510I
              The information contained within this document is the property of the Tennessee Valley
               Authority and has been determined to be sensitive. Its contents are not to be further
                    distributed without prior approval of the Inspector General or his designee.

                                        SENSITIVE INFORMATION
Bellefonte Nuclear Plant
Construction Inventory

        2006-510I
    February 14, 2006




      SENSITIVE INFORMATION
Objective and Scope

    Objective:
       Determine if Bellefonte Nuclear Plant’s (BLN’s) construction inventory
        records accurately reflect the actual warehoused equipment, materials, and
        supplies.*


    Scope:
       BLN’s warehoused materials that were purchased for construction, as
        identified by Procurement records.


         * For the purposes of this review, the term “materials” will be used to refer to the
           inventory of construction equipment, materials, and supplies.




                              SENSITIVE INFORMATION                                             2
Background

      In 1974, TVA began construction on BLN.
        – The BLN design called for the construction of two units.
        – Construction on both units was started and subsequently deferred--
          Unit 2 in 1985 and Unit 1 in 1988.
      Materials were purchased for both the construction phase and
       the anticipated operation of the plant.
      Purchases of construction materials and operating inventory were
       charged directly to the project. The Passport system is currently
       being used only as a tracking tool for the operating inventory.
      On September 20-21, 2004, a team from the Controller’s office
       performed a review of the operating inventory. The review found:
        – Inventory control and tracking deficiencies.
        – Inventory shortages which resulted in a $1.3 million accounting
          adjustment.
                         SENSITIVE INFORMATION                                 3
Background (cont’d)

      Procurement did a physical count of the construction inventory in
       1998 and logged the information into Excel spreadsheets. According
       to Procurement:
        – The original purchase order, invoice, and/or shipping documentation was
          examined to determine the cost of each item.
        – The original cost for many individual items and/or groups of items could
          not be determined due to:
                   Either missing, incomplete, or illegible documentation.
                   The material cost was not specifically identified in the contract or purchase
                    order.
            .
        – When the original cost could not be determined, the unit cost information
          was either left blank or filled with an indicator that used some
          combination of nines (e.g., 99.99, 999.99, and 9,999.99).




                                SENSITIVE INFORMATION                                               4
Background (cont’d)
                                            TOTAL COMMODITIES--PER                      TOTAL REPORTED
                                             PROCUREMENT LISTING                             COST

        Inventory with a
        reported original cost                            4,101                             $ 15,220,777
        provided
        Inventory with an
        unknown cost                                      3,521                               Unknown

      Procurement has begun disposing of all materials at BLN, including both the
       construction and operating materials.
      TVA has contracted with NuMarkets, LLC, to (1) facilitate the sale of some of the
       low cost surplus materials and (2) reduce TVA’s labor cost associated with
       surplus sales.
        – “TVA will use Contractor for a pilot program in selling non-nuclear materials through
          Contractor’s online marketplace.”
      At the request of Procurement, we initiated this inspection to determine if the
       construction inventory spreadsheets fairly represent the construction materials to
       be liquidated at BLN.*
        * Our review did not include the operating inventory (i.e., Power Stores Inventory) previously assessed by the TVA
          Controller’s office.
                                     SENSITIVE INFORMATION                                                                   5
Methodology

      We tested the accuracy of the Procurement construction inventory listings by
       physically verifying the existence of selected materials. Specifically:
        –    For 24 commodities, where the unit cost times the reported quantity
             on-hand equaled or exceeded $50,000, we verified the existence of all materials.
        –    For commodities, where the unit cost times the reported quantity
             on-hand equaled $100, but was less than $50,000, we selected a statistical sample
             for verification.*
        –    For commodities, where no cost could be provided, we selected a statistical
             sample for verification.*

       This inspection was conducted in accordance with the “Quality Standards for Inspections.”


       * We used attribute sampling methodology to identify sample sizes and evaluate the results. The sample selections were
         made randomly. Each sample size was based on a 4 percent maximum tolerable error rate and 5 percent risk of incorrect
         acceptance.




                                    SENSITIVE INFORMATION                                                                    6
Summary

   We found that for 213 commodities selected for review, approximately
   95 percent of the items pertaining to these commodities were actually
   warehoused at BLN.
    – However, the sales price of the inventory will likely be a lesser amount than
      the original purchase cost due to the condition of the material.




                         SENSITIVE INFORMATION                                        7
Observation 1 – Physical Verification
of Materials
    We found that for 194 of the 213 commodities we selected for verification, the
    individual items warehoused at BLN equaled the quantity shown on the
    Procurement inventory listing.
     –   For 24 commodities, where the unit cost times the reported quantity on-hand equaled
         or exceeded $50,000, we found:
              The actual quantity on-hand equaled the amount reported in the inventory spreadsheet.
              Our verification represented 3,891 individual items with an approximate cost of $2.4 million.


    For 95 commodities, where the unit cost times the reported quantity on-hand
    equaled $100, but was less than $50,000, we found:
     –   No quantity on-hand could be found for 6 commodities and the actual quantity on-hand
         was deficient for two other commodities.
     –   Our verification represented 1,331 individual items with an approximate cost of
         $234,000.
     –   The deficiencies represented 266 missing items with an approximate cost of $7,000.




                                 SENSITIVE INFORMATION                                                         8
Observation 1 – Physical Verification
of Materials (cont’d)
    For 94 commodities, where no cost could be provided, we found:
     – No quantity on-hand for 11 of the 94 commodities selected.
     – Our verification represented 795 individual items.
     – The deficiencies represented 39 missing items and over 2,000 feet of
       missing cable.




                         SENSITIVE INFORMATION                                9
Observation 2 – Condition of Materials

    We found the proceeds from the liquidation of the construction inventor
    may not equal the original cost, due to the condition of the materials.
    Specifically:
     – We observed rusting, water damaged, and deteriorating materials, as a
       result of exposure to the elements resulting from some poor/aging
       warehousing conditions.
     – Procurement has already sold some heat trace cable and, according to the
       purchaser, the cable failed testing.
     – We were told by Procurement that the value today would most likely be a
       lesser amount due to obsolescence, lack of maintenance, exposure to the
       elements, and that much of the materials were fabricated for BLN and
       would have no application for any other plant.
     – The Controller’s group also noted in their September 2004 review that some
       storage buildings were in bad need of repair--some buildings had destroyed
       walls.



                         SENSITIVE INFORMATION                                   10
Observation 2 – Condition of Materials
(cont’d)



                                                 Warehouse HJ - Interior




      Storage Building Yard A - Exterior




                         SENSITIVE INFORMATION                             11
